  AUDIT OF COMPLIANCE WITH STANDARDS
 GOVERNING COMBINED DNA INDEX SYSTEM
ACTIVITIES AT THE PRINCE GEORGE’S COUNTY
 POLICE DEPARTMENT CRIME LABORATORY
   PRINCE GEORGE’S COUNTY, MARYLAND




        U.S. Department of Justice
      Office of the Inspector General
               Audit Division


       Audit Report GR-30-11-001
             December 2010
  AUDIT OF COMPLIANCE WITH STANDARDS GOVERNING
   COMBINED DNA INDEX SYSTEM ACTIVITIES AT THE
              PRINCE GEORGE’S COUNTY
       POLICE DEPARTMENT CRIME LABORATORY
         PRINCE GEORGE’S COUNTY, MARYLAND

                            EXECUTIVE SUMMARY

      The Department of Justice, Office of the Inspector General (OIG),
Audit Division, has completed an audit of compliance with standards
governing Combined DNA Index System (CODIS) activities at the Prince
George’s County Police Department Crime Laboratory (Laboratory).

Background

      The Federal Bureau of Investigation’s (FBI) CODIS program combines
forensic science and computer technology to provide an investigative tool to
federal, state, and local crime laboratories in the United States, as well as
those from select international law enforcement agencies. The CODIS
program allows these crime laboratories to compare and match DNA profiles
electronically, to assist law enforcement in solving crimes and identify
missing or unidentified persons. 1 The FBI’s CODIS Unit manages CODIS, as
well as develops, supports, and provides the program to crime laboratories
to foster the exchange and comparison of forensic DNA evidence.

      The FBI implemented CODIS as a distributed database with
hierarchical levels that enable federal, state, and local crime laboratories to
compare DNA profiles electronically. The hierarchy consists of three distinct
levels that flow upward from the local level to the state level and then, if
allowable, the national level. National DNA Index System (NDIS), the
highest level in the hierarchy, is managed by the FBI as the nation’s DNA
database containing DNA profiles uploaded by law enforcement agencies
across the United States. NDIS enables the laboratories participating in the
CODIS program to electronically compare DNA profiles on a national level.
The State DNA Index System (SDIS) is used at the state level to serve as a
state’s DNA database containing DNA profiles from local laboratories and
state offenders. The Local DNA Index System (LDIS) is used by local
laboratories.

       1
         DNA, or deoxyribonucleic acid, is genetic material found in almost all living cells
that contains encoded information necessary for building and maintaining life.
Approximately 99.9 percent of human DNA is the same for all people. The differences found
in the remaining 0.1 percent allow scientists to develop a unique set of DNA identification
characteristics (a DNA profile) for an individual by analyzing a specimen containing DNA.
OIG Audit Objectives

       Our audit generally covered the period from July 2008 through August
2010. The objectives of our audit were to determine if: (1) Prince George’s
County Police Department Laboratory was in compliance with the NDIS
participation requirements; (2) the Laboratory was in compliance with the
Quality Assurance Standards (QAS) issued by the FBI; and (3) the
Laboratory’s forensic DNA profiles in CODIS databases were complete,
accurate, and allowable for inclusion in NDIS. We noted the following during
our audit:

  •   The Laboratory was not in compliance with the NDIS security
      requirement that CODIS backups are stored in a secure, locked
      container.

  •   The Laboratory did not confirm one match we reviewed, and failed to
      confirm two of its matches within the advised 30-day period. 2
      Furthermore, the Laboratory failed to notify Prince George’s County
      Police Department investigators of a match confirmation in two
      additional matches we reviewed, and in another instance, notified
      investigators over 2 weeks after the match was confirmed.

  •   The Laboratory complied with FBI Quality Assurance Standards to
      ensure security of DNA evidence within its freezers, but it did not
      resolve one of the 2008 QAS review findings that required
      corresponding language for its Quality Assurance Manual.

       In addition, we determined that 81 out of 100 profiles were complete,
accurate, and allowable for inclusion in NDIS, while 19 profiles were
unallowable. The Laboratory removed all 19 profiles from NDIS. 3 These 19
profiles included 2 that did not contain enough case information and 16 that
were not allowable for upload into NDIS. For the final profile, the Laboratory
did not obtain an elimination standard for the victim. According to the FBI,
the profile would be allowable in NDIS if a request is made for such a
standard; however, the Laboratory elected to remove the profile from NDIS
until it received the elimination standard. Furthermore, although we found
that the GeneScan® data we reviewed for 10 of the 100 profiles indicated
that the negative controls were amplified as appropriate, we had to request
additional profiles because several of the GeneScan® printouts in the original

      2
        A fourth match was confirmed after 30 days, but we found that the delay was
caused by a laboratory outside the scope of our review.
      3
         Of the 19 profiles we deemed unallowable, 15 were analyzed by the same
technician at the laboratory.


                                         - ii -
sample were unavailable due to technical problems with the Macintosh
computer utilized by the Laboratory.

      We made six recommendations to address the Laboratory’s compliance
with standards governing CODIS activities, which are discussed in detail in
the Findings and Recommendations section of the report. Our audit
objectives, scope, and methodology are detailed in Appendix I of the report
and the audit criteria are detailed in Appendix II.

     We discussed the results of our audit with Laboratory officials, who
implemented corrective action prior to the release of this report.




                                    - iii -
                                TABLE OF CONTENTS

                                                                                        Page
INTRODUCTION ................................................................................ 1
   Background ..................................................................................... 1
   OIG Audit Objectives ........................................................................ 1
   Legal Foundation for CODIS ............................................................... 2
   CODIS Structure .............................................................................. 3
   Laboratory Information ..................................................................... 6

FINDINGS AND RECOMMENDATIONS................................................ 7
   I. Compliance with NDIS Participation Requirements ............................ 7
   II. Compliance with the Quality Assurance Standards ......................... 11
   III. Appropriateness of Forensic DNA Profiles in CODIS Databases ....... 15

APPENDIX I: OBJECTIVES, SCOPE, AND METHODOLOGY ................ 20

APPENDIX II: AUDIT CRITERIA ...................................................... 23
   NDIS Participation Requirements ...................................................... 23
   Quality Assurance Standards ........................................................... 24
   Office of the Inspector General Standards ......................................... 25

APPENDIX III: LABORATORY RESPONSE TO THE DRAFT REPORT ... 27

APPENDIX IV: THE FEDERAL BUREAU OF INVESTIGATION
  RESPONSE TO THE DRAFT REPORT ............................................. 30

APPENDIX V: OFFICE OF INSPECTOR GENERAL ANALYSIS AND
  SUMMARY OF ACTIONS NECESSARY TO CLOSE THE REPORT ....... 31
                                 INTRODUCTION

      The Department of Justice, Office of the Inspector General, Audit
Division, has completed an audit of compliance with standards governing
Combined DNA Index System (CODIS) activities at the Prince George’s
County Police Department Crime Laboratory (Laboratory).

Background

      The Federal Bureau of Investigation’s (FBI) CODIS provides an
investigative tool to federal, state, and local crime laboratories in the United
States using forensic science and computer technology. The CODIS program
allows these laboratories to compare and match DNA profiles electronically,
thereby assisting law enforcement in solving crimes and identifying missing
or unidentified persons. 1 The FBI’s CODIS Unit manages CODIS and is
responsible for its use in fostering the exchange and comparison of forensic
DNA evidence.

OIG Audit Objectives

      Our audit generally covered the period from July 2008 through August
2010. The objectives of our audit were to determine if: (1) the Laboratory
was in compliance with the National DNA Index System (NDIS) participation
requirements; (2) the Laboratory was in compliance with the Quality
Assurance Standards (QAS) issued by the FBI; and (3) the Laboratory’s
forensic DNA profiles in CODIS databases were complete, accurate, and
allowable for inclusion in NDIS. Appendix I contains a detailed description of
our audit objectives, scope, and methodology, while the criteria used to
conduct our audit are presented in Appendix II.




       1
         DNA, or deoxyribonucleic acid, is genetic material found in almost all living cells
that contains encoded information necessary for building and maintaining life.
Approximately 99.9 percent of human DNA is the same for all people. The differences found
in the remaining 0.1 percent allow scientists to develop a unique set of DNA identification
characteristics (a DNA profile) for an individual by analyzing a specimen containing DNA.
Legal Foundation for CODIS

      The FBI began the CODIS program as a pilot project in 1990. The
DNA Identification Act of 1994 (Act) authorized the FBI to establish a
national index of DNA profiles for law enforcement purposes. The Act, along
with subsequent amendments, has been codified in a federal statute
(Statute) providing the legal authority to establish and maintain NDIS. 2

Allowable DNA Profiles

      The Statute authorizes NDIS to contain the DNA identification records
of persons convicted of crimes, persons who have been charged in an
indictment or information with a crime, and other persons whose DNA
samples are collected under applicable legal authorities. Samples voluntarily
submitted solely for elimination purposes are not authorized for inclusion in
NDIS. The Statute also authorizes NDIS to include analysis of DNA samples
recovered from crime scenes or from unidentified human remains, as well as
those voluntarily contributed from relatives of missing persons.

Allowable Disclosure of DNA Profiles

       The Statute requires that NDIS only include DNA information that is
based on analyses performed by or on behalf of a criminal justice agency –
or the U.S. Department of Defense – in accordance with QAS issued by the
FBI. The DNA information in the index is authorized to be disclosed only:
(1) to criminal justice agencies for law enforcement identification purposes;
(2) in judicial proceedings, if otherwise admissible pursuant to applicable
statutes or rules; (3) for criminal defense purposes, to a defendant who shall
have access to samples and analyses performed in connection with the case
in which the defendant is charged; or (4) if personally identifiable
information (PII) is removed for a population statistics database, for
identification research and protocol development purposes, or for quality
control purposes.




      2
          42 U.S.C.A. § 14132 (2006).

                                        -2-
CODIS Structure

       The FBI implemented CODIS as a distributed database with
hierarchical levels that enables federal, state, and local crime laboratories to
compare DNA profiles electronically. CODIS consists of a hierarchy of three
distinct levels: (1) NDIS is managed by the FBI as the nation’s DNA
database containing DNA profiles uploaded by participating states, (2) the
State DNA Index System (SDIS) is used at the state level to serve as a
state’s DNA database containing DNA profiles from local laboratories within
the state and state offenders, and (3) the Local DNA Index System (LDIS) is
used by local laboratories. DNA profiles originate at the local level and then
flow upward to the state and, if allowable, national level. For example, the
local laboratory in the Palm Beach County, Florida, Sheriff’s Office sends its
profiles to the state laboratory in Tallahassee, which then uploads the
profiles to NDIS. Each state participating in CODIS has one designated SDIS
laboratory. The SDIS laboratory maintains its own database and is
responsible for overseeing NDIS issues for all CODIS-participating
laboratories within the state. The graphic below presents an example of how
the system hierarchy works.

         Exhibit 1: Example of System Hierarchy within CODIS


                                              NDIS
                                   Maintained by the FBI




SDIS                            SDIS                             SDIS
Laboratory                      Laboratory                       Laboratory
Richmond, CA                    Springfield, IL                  Tallahassee, FL



                                  LDIS Laboratories (partial list):
                                  DuPage County Sheriff’s Office
                                  Illinois State Police, Chicago
                                  Illinois State Police, Rockford

 LDIS Laboratories (partial list):                       LDIS Laboratories (partial list):
 Orange County Sheriff’s Department                      Broward County Sheriff’s Office
 San Bernardino County Sheriff’s Department              Miami-Dade Police Department
 San Diego Police Department                             Palm Beach County Sheriff’s Office




                                              -3-
National DNA Index System

      NDIS is the highest level in the CODIS hierarchy and enables the
laboratories participating in the CODIS program to electronically compare
DNA profiles on a national level. NDIS does not contain names or other PII
about the profiles. Therefore, matches are resolved through a system of
laboratory-to-laboratory contacts. Within NDIS are eight searchable indices
discussed below.

       •   Convicted Offender Index contains profiles generated from persons
           convicted of qualifying offenses. 3

       •   Arrestee Index is comprised of profiles developed from persons who
           have been arrested, indicted, or charged in an information with a
           crime.

       •   Legal Index consists of profiles that are produced from DNA
           samples collected from persons under other applicable legal
           authorities. 4

       •   Detainee Index contains profiles from non-U.S. persons detained
           under the authority of the U.S. and required by law to provide a
           DNA sample for analysis and entry into NDIS.

       •   Forensic Index profiles originate from, and are associated with,
           evidence found at crime scenes.

       •   Missing Person Index contains known DNA profiles of missing
           persons and deduced missing persons.

       •   Unidentified Human (Remains) Index holds profiles from
           unidentified living individuals and the remains of unidentified
           deceased individuals. 5




       3
         The phrase “qualifying offenses” is used here to refer to local, state, or federal
crimes that require a person to provide a DNA sample in accordance with applicable laws.
       4
         An example of a Legal Index profile is one from a person found not guilty by
reason of insanity, who is required by the relevant state law to provide a DNA sample.
       5
           An example of an Unidentified Human (Remains) Index profile from a living person
is a profile from a child or other individual, who cannot or refuses to identify themselves.

                                             -4-
      •   Relatives of Missing Person Index is comprised of DNA profiles
          generated from the biological relatives of individuals reported
          missing.

      Although CODIS is comprised of multiple indices or databases, the two
main functions of the system are to: (1) generate investigative leads that
may help in solving crimes, and (2) identify missing and unidentified
persons.

       The Forensic Index generates investigative leads in CODIS that may
help solve crimes. Investigative leads may be generated through matches
between the Forensic Index and other indices in the system, including the
Convicted Offender, Arrestee, and Legal Indices. These matches may
provide investigators with the identity of suspected perpetrators. CODIS
also links crime scenes through matches between Forensic Index profiles,
potentially identifying serial offenders.

      In addition to generating investigative leads, CODIS furthers the
objectives of the FBI’s National Missing Person DNA Database program
through its ability to identify missing and unidentified individuals. Those
persons may be identified through matches between indices in CODIS, such
as, through matches between the profiles in the Missing Persons Index and
the Unidentified Human (Remains) Index. The profiles within the Missing
Persons and Unidentified Human (Remains) Indices may also be vetted
against the Forensic, Convicted Offender, Arrestee, and Legal Indices to
provide investigators with leads in solving missing and unidentified persons
cases.

State and Local DNA Index System

       The FBI provides CODIS software free of charge to any state or local
law enforcement laboratory performing DNA analysis. Laboratories are able
to use the CODIS software to upload profiles to NDIS. However, before a
laboratory is allowed to participate at the national level and upload DNA
profiles to NDIS, a Memorandum of Understanding (MOU) must be signed
between the FBI and the applicable state’s SDIS laboratory. The MOU
defines the responsibilities of each party, includes a sublicense for the use of
CODIS software, and delineates the standards laboratories must meet in
order to utilize NDIS. Although officials from LDIS laboratories do not sign
an MOU, LDIS laboratories that upload DNA profiles to an SDIS laboratory
are required to adhere to the MOU signed by the SDIS laboratory.




                                      -5-
       States are authorized to upload DNA profiles to NDIS based on local,
state, and federal laws, as well as NDIS regulations. However, states or
localities may maintain NDIS-restricted profiles in SDIS or LDIS. For
instance, a local law may allow for the collection and maintenance of a
victim profile at LDIS, but NDIS regulations do not authorize the upload of
that profile to the national level.

       The utility of CODIS relies upon the completeness, accuracy, and
quantity of profiles that laboratories upload to the system. Incomplete
CODIS profiles are those for which the required number of core loci were not
tested or do not contain all of the DNA information that resulted from a DNA
analysis and may not be searched at NDIS. The probability of a false match
among DNA profiles is reduced as the completeness of a profile increases.
Inaccurate profiles, which contain incorrect DNA information or an incorrect
specimen number, may generate false positive leads, false negative
comparisons, or lead to the misidentification of a sample. CODIS becomes
more useful as the quantity of DNA profiles in the system increases because
the potential for additional leads rises. However, laws and regulations
exclude certain types of profiles from being uploaded to CODIS to prevent
violations to an individual’s privacy and foster the public’s confidence in
CODIS. Therefore, it is the responsibility of the Laboratory to ensure that it
is adhering to the NDIS participation requirements and the profiles uploaded
to CODIS are complete, accurate, and allowable for inclusion in NDIS.

Laboratory Information

       The Prince George’s County Police Department Crime Laboratory
participates in the CODIS program as a Local DNA Indexing System (LDIS)
laboratory responsible for serving Prince George’s County and its
municipalities. Prince George’s County re-opened its DNA laboratory and
began uploading profiles to the State DNA Indexing System (SDIS) in March
2009. 6 The Laboratory analyzes only forensic samples, and has outsourced
this responsibility to both Baltimore Rh Typing Laboratory (BRT) and Bode
Technologies (Bode). While the Laboratory continues to contract with Bode,
BRT was no longer being used as a vendor as of March 2009. The
Laboratory is accredited by the American Society of Crime Laboratory
Directors.




      6
         The Laboratory was offline from NDIS between April 2007 and January 2009. In
January 2009, the FBI deemed the Laboratory to be in compliance with QAS standards and
approved their participation in NDIS. During our review, we were told that the Laboratory
waited until March 2009 before running at full capacity.

                                           -6-
                FINDINGS AND RECOMMENDATIONS

      I. Compliance with NDIS Participation Requirements

      We determined that the Laboratory was generally in compliance
      with NDIS participation requirements we reviewed. However, we
      found that the Laboratory did not fully meet NDIS requirements
      in two areas. First, the Laboratory does not secure its CODIS
      backup data, stored on an external hard drive, in a locked
      container. Second, the Laboratory does not confirm all its NDIS
      matches or notify its investigators of the matches in a timely
      manner.

      The NDIS participation requirements, which consist of the MOU and
the NDIS Procedure Manual, establish the responsibilities and obligations of
laboratories that participate in the CODIS program at the national level. The
MOU describes the CODIS-related responsibilities of both the Laboratory and
the FBI. The NDIS Procedure Manual is comprised of the NDIS operational
procedures and provides detailed instructions for laboratories to follow when
performing certain procedures pertinent to NDIS. The NDIS participation
requirements we reviewed are described in more detail in Appendix II of this
report.

Results of the OIG Audit

      The audit team noted two exceptions to the Laboratory’s compliance
with the NDIS participation requirements. We found that the Laboratory
uses external hard drives for their weekly back-up of CODIS data, and these
hard drives are not stored in a locked container as required by NDIS Security
Requirements. Additionally, we reviewed 13 NDIS matches involving the
Laboratory and found that 2 were not confirmed in a timely manner, and a
third was not confirmed. 7 For 2 other matches we reviewed, notification of
the match confirmation was not provided to investigators, and another
match was provided to investigators over 2 weeks after the Laboratory had
confirmed the match. We believe that the Laboratory’s delay in its
confirmation of the matches are in violation of NDIS procedures, and we are
concerned that its delay in notifying investigators in a timely manner could
potentially lead to the suspected perpetrator committing additional crimes.
The results of our audit are described in more detail below.



      7
        A fourth match was confirmed after 30 days, but we found that the delay was
caused by a laboratory outside the scope of our review.

                                          -7-
NDIS Back-up Physical Security

       The Laboratory uses two external hard drives for its weekly back up of
CODIS data. 8 The Laboratory uploads the information to CODIS on Thursday
and then creates a backup to one of the hard drives on Friday. The hard
drive is then transported to a secure, off-site location for storage. A second
hard drive, which had stored the previous week’s back-up, is brought back
to the Laboratory and is stored with the server in a locked CODIS room, but
is not stored in a separate, locked container. According to NDIS guidelines,
the CODIS back-up needs to be stored in a locked container, “electronic
media on which CODIS data (backups) is stored shall be maintained in a
lockable container.”

NDIS Match Procedures

       The Laboratory is responsible for identifying matches via NDIS and to
notify the investigators designated to a case of a match. We reviewed 13 of
the universe of 322 identified matches. The sample selected was tested for
timeliness in both match confirmation and notification of investigators. Of
these 13, the Laboratory was untimely in confirming 2 matches based on the
NDIS procedures, which state that laboratories are required to make a “best
effort” to disposition matches within 30 business days. In addition, the
Laboratory did not confirm the names for a third match we reviewed. 9 For
two other matches, as of September 2010, the Laboratory had not notified
the investigators of the match confirmation, while another match was
provided over 2 weeks after confirmation. 10 As shown in Exhibit 2, the
Laboratory did not request confirmation for the matches quickly enough,
leading to a delay between match, confirmation, and notification of the
investigators. Untimely notification of the investigators may result in the
suspected perpetrator committing additional and possibly more egregious
crimes.




       8
           The Laboratory currently has funding for a server that will allow the Laboratory to
more efficiently back up CODIS data, but as of August 2010 the server was not yet
installed.
       9
        A fourth match was confirmed after 30 days, but we found that the delay was
caused by a laboratory outside the scope of our review.
       10
           We found that the match that was untimely in its notification of investigators was
also confirmed after 30 days. However, we noted that the delay in confirmation was caused
by a laboratory outside the scope of our review.

                                             -8-
              Exhibit 2: Timeliness of NDIS Match Procedures

                       Business Days Greater              Business Days Greater
                        than 30 Day Match               than 10 Day Investigator
   Match ID           Confirmation Timeframe             Notification Timeframe
DC0000164072 11            No confirmation                             -
DC0000157811                     6 12                                  7
DC0000158116                      -                             No notification
                                                         Notification 20 days before
DC0000140865                       37                            confirmation
DC0000149694                      33 13                              N/A 14
DC0000133744                       17                                  -
DC0000158160                        -                           No notification
Source: OIG Analysis of Laboratory Case files

      We had no significant concerns with regard to the Laboratory’s
compliance with the other NDIS participation requirements we reviewed, as
described below.

       •    All Laboratory personnel were provided with NDIS Procedures
            Manual, in addition to being available on the Criminal Justice
            Information System Wide Area Network. Furthermore, the CODIS
            administrator was responsible for informing the Laboratory CODIS
            users of any new procedures implemented.

       •    We contacted the FBI to verify that all Laboratory CODIS users
            were up-to-date with training. All three CODIS users have
            completed NDIS training for 2010, and matched the list provided by
            the Laboratory.


       11
           This match was not confirmed. The case was solved but NDIS procedures require
that in the case of a match to a solved case, names must be exchanged. Although the
Prince George’s County investigator was not interested in verifying the name, the
requirements appear to necessitate verification of the name.
       12
          Though the match confirmation took longer than 30 days, we noted in our review
that the Laboratory was not at fault; the laboratory responsible for confirming the match
was external to our review.

       13
          Though the match confirmation took longer than 30 days, we noted in our review
that the Laboratory was not at fault; the laboratory responsible for confirming the match
was external to our review.
       14
         No notification was necessary because it was a “Conviction Match,” (i.e., the
Laboratory’s forensic profile was associated with a solved case and matched another
Laboratory’s convicted offender profile).

                                            -9-
      •   We verified that all Laboratory CODIS users submitted FBI required
          documentation for access to CODIS.

      •   We reviewed the Laboratory procedures in its Quality Assurance
          Manual (QAM) for maintaining personnel training and qualification
          records, and found that personnel training records are kept
          indefinitely. Training records are filed and kept for reference in the
          CODIS Administrator’s office.

      •   We verified the Laboratory forwarded its QAS review to the state
          CODIS administrator within 30 days, but not the NDIS custodian as
          established by NDIS QAS Audit procedures. Because the state
          CODIS administrator did not forward the QAS review to NDIS within
          the 30 day timeframe, the Laboratory was considered late on its
          requirement. Therefore, Laboratory personnel stated they would
          send all future QAS audits directly to NDIS while including the state
          CODIS administrator on the correspondence.

Conclusion

      We found that the Laboratory was not in compliance with the NDIS
security requirement that it store on-site CODIS backup in a secure, locked
container. Also, the Laboratory failed to confirm three of its matches within
the advised 30 day period, and in three instances, did not notify Prince
George’s County Police Department investigators of the NDIS match in a
timely manner. As a result, we made two recommendations.

Recommendations

      We recommend that the FBI:

1.    Direct the Laboratory to store its on-site backup hard drive in a locked
      container.

2.    Direct the Laboratory to implement a policy for confirming matches
      within the 30-day period as well as notifying investigators in a timely
      manner.




                                      -10-
     II. Compliance with the Quality Assurance Standards

       We found that the Laboratory generally complied with the
       Quality Assurance Standards issued by the FBI that we reviewed.
       Specifically, we found that (1) security at the Laboratory was
       adequate, (2) DNA evidence was properly locked and accounted
       for, (3) protocols were followed with regard to the separation of
       known and unknown samples, and (4) Quality Assurance
       Standards reviews were performed within designated
       timeframes. We noted one issue, in which the Laboratory failed
       to insert language into its Quality Assurance Manual in
       accordance with its 2008 Quality Assurance Standards review.

       During our audit, we considered the Forensic Quality Assurance
Standards (QAS) issued by the FBI. 15 These standards describe the quality
assurance requirements that the Laboratory must follow to ensure the
quality and integrity of the data it produces. We also assessed the two most
recent QAS reviews that the laboratory underwent. 16 The QAS we reviewed
are listed in Appendix II.

Results of the OIG Audit

      We noted one exception to the Laboratory’s compliance with the
Forensic QAS. Specifically, we found that the Laboratory failed to resolve
one of the 2008 QAS review findings which required language regarding
locked DNA evidence freezers in its Quality Assurance Manual (QAM). The
results of our audit are described in more detail below.

Written QAM Policy for DNA Freezers

      We examined the two most recent QAS reviews conducted on the
Laboratory: (1) the October 6-8, 2008, external QAS review; and (2) the
September 16-17, 2009, internal QAS review. The external QAS review
issued six findings, and the Laboratory provided a response to all of the
       15
          Forensic Quality Assurance Standards refers to the Quality Assurance Standards
for Forensic DNA Testing Laboratories, effective July 1, 2009.

       16
            The QAS require that laboratories undergo annual audits. Every other year, the
QAS requires that the audit be performed by an external agency that performs DNA
identification analysis and is independent of the laboratory being reviewed. These audits
are not required by the QAS to be performed in accordance with Government Auditing
Standards (GAS) and are not performed by the Department of Justice Office of the
Inspector General. Therefore, we will refer to the QAS audits as reviews (either an internal
laboratory review or and external laboratory review, as applicable) to avoid confusion with
our audits that are conducted in accordance with GAS.

                                            -11-
findings. The internal QAS review did not note any new findings or, repeat
deficiencies from the external review.

      One of the recommendations issued in the 2008 external QAS review
stated that extracted DNA evidence was stored in an unlocked freezer which
did not constitute a secure container. Accordingly, the Laboratory
responded that it would address the finding by adding the following policy to
its QAM, "All freezers containing DNA extracts will be locked at all times."
Though we noted during our tour that the Laboratory secures the freezers,
the QAM does not include the requirement the Laboratory specified in their
response to the external audit. We believe the requirement regarding the
security of the freezers should be contained in the QAM.

      We found that the Laboratory complied with the other QAS we
reviewed, as described below.

     •   We verified that QAS reviews were conducted on the Laboratory.
         The Laboratory had an external QAS review performed in October
         2008 and an internal QAS review in September 2009. This is in
         accordance with QAS Standard 15, which directs labs to have a
         review performed every year, but once every 2 years must undergo
         an external review.

     •   We contacted the external QAS reviewer from the 2008 QAS review
         and received a signed auditor independence statement for the
         period in question.

     •   We toured the Laboratory and found that access to the facility is
         secured via video surveillance, posted personnel at entrances, and
         limited public access. Furthermore, the Laboratory was secured
         with a separate, locked, and alarmed door. We also reviewed the
         QAM, which provided policies on physical security of the facility, the
         Laboratory and the evidence locker room, and assigning keys
         necessary to access the secured areas.

     •   We reviewed the Laboratory policies for evidence security and found
         that the procedures the Laboratory has in place to ensure accurate
         entry into CODIS were adequate. Furthermore, it has appropriate
         policies in place to protect, store, and secure evidence.




                                     -12-
•   We reviewed the policies and procedures the Laboratory
    implements regarding the separation of known and unknown DNA
    samples in accordance with the QAS standards. According to the
    QAM, standard and evidence samples must be separated by time
    and space. We did not identify any material deficiencies with
    regard to the Laboratory’s separation of known and unknown DNA
    samples.

•   We examined the Laboratory policy for retaining samples, and
    found that the Laboratory retains sample extracts indefinitely and
    controls them via authorized access and secured storage. The
    extracts and evidence samples are held long-term in the Laboratory
    freezer, and if the Laboratory must return the evidence from the
    large pieces which the DNA samples were taken, they are sent back
    to the property division, which is housed in a separate facility.

•   We found that the Laboratory has outsourced work to Bode
    Technology Group (Bode) and Baltimore RH Typing (BRT)
    Laboratories. The Laboratory no longer contracted with BRT at the
    time of our review, but continues to contract with Bode through the
    Maryland State Police. We received accreditation and audit
    documentation for both vendors for relevant years. The Laboratory
    provided contracts for both Bode and BRT; we reviewed the
    contracts and did not note any requirements that were not met.

•   We reviewed the Laboratory procedures for verifying vendor work
    and found that 100 percent of the outsourced profiles are provided
    with a technical review, and documented. During the course of our
    profile review, those profiles that had been contracted out, all had a
    technical review included in the file.

•   We reviewed the site visit documentation for both vendors utilized
    by the Laboratory during the 2 years prior to our audit and found
    that the on-site visits were conducted for the relevant years for
    both BRT and Bode. The site visit documentation indicated only
    one issue for Bode, but the issue was resolved and it did not appear
    in subsequent years. Furthermore, the BRT site visits pointed to an
    audit containing six findings, all of which the Laboratory responded
    to. In our interview with the Laboratory, they stated there were no
    issues with either of their vendors.




                                -13-
Conclusion

      We found that the Laboratory complied with the FBI Quality Assurance
Standards we reviewed, with one exception. Though the Laboratory
implemented procedures to ensure security of DNA evidence within its
freezers, it did not resolve one of the 2008 QAS review findings that required
corresponding language for its Quality Assurance Manual. As a result, we
made one recommendation.

Recommendations

      We recommend that the FBI:

3.    Direct that the Laboratory insert a written policy in its QAM regarding
      the locking of all freezers containing DNA extracts, which reads: "All
      freezers containing DNA extracts will be locked at all times."




                                     -14-
III. Appropriateness of Forensic DNA Profiles in CODIS Databases

       We determined that 19 of the 100 profiles we reviewed were
       unallowable for upload into NDIS. The 19 profiles included 2
       that did not contain enough case information to ascertain the
       reason for allowability; 16 that were not allowable for upload
       into NDIS based on various factors including: samples obtained
       from the suspect’s person or residence, samples obtained from a
       location the suspect would likely have left DNA evidence by
       means not connected with the crime, and samples that were not
       directly attributable to the crime; and 1 that did not have an
       elimination standard for the victim. The Laboratory agreed with
       our findings and removed all 19 profiles from NDIS. We noted
       that 15 of the 19 profiles determined to be unallowable for
       upload to NDIS were analyzed by the same technician at the
       Laboratory. Furthermore, several of the GeneScan® printouts
       that we requested for review were unavailable due to technical
       problems with the Macintosh computer utilized by the
       Laboratory.

       We reviewed a sample of the Laboratory’s forensic DNA profiles to
determine whether each profile was complete, accurate, and allowable for
inclusion in NDIS. 17 To test the completeness and accuracy of each profile,
we established standards that require a profile include all the loci for which
the analyst obtained results, and that the values at each locus match those
identified during analysis. 18 Our standards are described in more detail in
Appendix II of this report.

       The NDIS operational procedures establish the DNA data acceptance
standards by which laboratories must abide. These procedures prohibit a
laboratory from uploading forensic profiles to NDIS that clearly match the
DNA profile of the victim or another known person, unless the known person
is a suspected perpetrator. The NDIS procedures we reviewed are described
in more detail in Appendix II of this report.




       17
           When a laboratory’s universe of DNA profiles in NDIS exceeds 1,500, our sample
is taken from SDIS rather than directly from NDIS. See Appendix I for further description of
the sample selection.
       18
            A “locus” is a specific location on a chromosome. The plural form of locus is loci.

                                              -15-
Results of OIG Audit

       We selected a sample of 100 profiles out of the 753 forensic profiles
the Laboratory had uploaded to NDIS as of July 2, 2010. Of the 100 forensic
profiles sampled, we found 19 were unallowable for upload to NDIS. The
remaining profiles sampled were complete, accurate, and allowable for
inclusion in NDIS. The specific exceptions are explained in more detail
below.

Profile Allowability

       Based on our review, we found that 19 of the 100 profiles in the
sample we selected were unallowable for upload into NDIS, while the
remaining 81 profiles we found to be complete, accurate, and allowable. We
examined each profile in the sample to determine allowability based on NDIS
guidelines such as: (1) whether a crime was committed; (2) whether the
profile was obtained from the crime scene; (3) whether the profile was
attributable to a putative perpetrator; and (4) whether there was a suspect
in the case. 19 Of the unallowable profiles that we identified, two did not
contain enough, or any, information in the case file to determine the exact
nature of the crime and whether the sample was obtained in an allowable
fashion. Additionally, 16 profiles were deemed unallowable for various
reasons including, samples obtained from the suspect’s person or residence;
samples obtained from a location the suspect would likely have left DNA
evidence by means not connected with the crime, such as a significant
other’s residence; and samples that were not directly attributable to the
crime. Furthermore, the final profile we deemed unallowable was missing an
elimination standard. According to the FBI, if the Laboratory makes and
documents efforts to obtain the elimination standards, but determines that
elimination standards are unavailable, the profile may be uploaded to NDIS.
Although the Laboratory requested the elimination standard during the
course of our audit, they elected to remove the profile until they received
the elimination standard. The results of our review are noted in Exhibit 3
below:




       19
          If there is a suspect in the case and the profile was taken directly from the
suspect’s person or possession, the profile would not be allowable for upload into NDIS
because a suspect would be expected to have his or her own DNA on objects in their
possession, independent of the crime.

                                           -16-
            Exhibit 3: Questioned Profiles Removed from the Prince
             George’s County Police Department Crime Laboratory

Sample
Number                               Reason for Exception
CA-04       Sample collected from vehicle used by the suspect at the time of the
            crime; therefore, reasonable to expect profile to be present independent
            of the crime.
CA-09       Case file did not contain the necessary background information on the
            specifics of the crime.
CA-16       Sample collected during a search warrant at the suspect’s residence. It
            was reasonable to expect evidence to be present independent of the
            crime.
            Samples in file were all known; no unknown samples present in the
            case file. Requested additional information, but the Laboratory was
CA-18       unable to provide it. Removed from NDIS.
CA-22       Sample collected from object at suspect’s residence. It was reasonable
            to expect profile to be present independent of the crime.
            Car used in the commission of a crime, but the owner was never
            identified because the car was stolen. The profile did not match the
CA-26       suspects, and as such, an attempt to retrieve an elimination standard
            for car owner was deemed necessary. Laboratory has requested
            additional information; can re-enter if information shows allowability or
            if request is documented and standard is not available.
CA-29       Sample taken off the suspect’s person.
            Did not have the necessary case information. Laboratory has requested
CA-32       additional information; can re-enter if information shows allowability.
CA-34       Case file was unable to link the sample with the crime.
CA-36       Sample not attributable to the putative perpetrator.
CA-38       Case file was unable to link the sample with the crime.
            No elimination standard provided for victim. We noted to Laboratory
CA-40       that profile allowable upon request of standard and documentation.
CA-48       Sample collected from suspect’s vehicle that was used in a vehicular
            manslaughter case; therefore, reasonable to expect profile to be
            present in suspect’s own car independent of the crime.
CA-49       Sample not attributable to the putative perpetrator.
CA-51       Sample collected during a search warrant at suspect’s residence.
CA-56       Case file was unable to link the sample with the crime.
CA-62       Sample collected from vehicle belonging to the suspect’s wife.
CA-69       Sample collected during a search/seizure where suspect resided.
            Sample collected from foot of victim at the crime scene; the scene took
CA-75       place at the residence shared by the suspect and victim. It was
            reasonable to expect evidence to be present independent of the crime.
Source: Prince George’s Police Department Crime Laboratory and OIG Analysis




                                         -17-
       We analyzed the 19 unallowable profiles and determined 15 of 19
unallowable profiles were processed by a single technician. The majority of
the 19 profiles were uploaded prior to the issuance of the FBI’s 2006
guidance, which provided specific detail on the allowability of profiles being
uploaded into NDIS. In lieu of the Laboratory implementing the labor-
intensive process of reviewing all profiles uploaded by the technician in
question, we recommend the Laboratory make a change to its profile
suitability review, which denotes the reason for the each profile’s allowability
in NDIS. Specifically, we recommend the Laboratory document the profile
suitability review for all future profiles that are uploaded into NDIS. This
profile suitability review documentation would require that analysts indicate
on a check off sheet why the profile is allowable (such as was the sample
from a crime scene or was the sample an unknown). Additionally, we
recommend the Laboratory implement a policy in its QAM that requires
analysts to document the review of the suitability documentation during its
match resolution process. The additional review will help to ensure that if
older, unallowable profiles did produce a match in the future, it will not be
reported and will be deleted from NDIS at that time.

GeneScan® Data Review

      During our audit, we took a judgmental sample of 10 profiles from the
100 profile sample in order to review the GeneScan® data to ensure that
negative controls were amplified during the analysis. However, we had to
revise our sample because some of the GeneScan® printouts we originally
selected were unavailable because the Macintosh computer necessary to
access and print the GeneScan® data was broken and could not be repaired.
Therefore we revised our sample and included all but one forensic analyst
that conducted analysis on our sample profiles. 20 All 10 of the GeneScan®
printouts we sampled indicated the personnel had appropriately amplified
the negative controls during analysis. We recommend that the Laboratory
create and implement a policy or procedure for a contingency plan used in
cases of faulty equipment; specifically, the Macintosh computer necessary to
access the GeneScan® data for some profiles.




       20
         The GeneScan® printouts for one analyst were unavailable because the
Laboratory informed us that the analyst did not work for Prince George’s County Police
Department; the analyst worked for one of the vendor laboratories, and therefore the
documents were unavailable.

                                           -18-
Conclusion

       We found that 19 of the 100 profiles in the sample we selected were
unallowable for upload into NDIS, while the remaining 81 profiles we found
to be complete, accurate, and allowable. The Laboratory removed all 19
profiles from NDIS. In reviewing the 19 unallowable profiles we determined
that 15 of the 19 unallowable profiles were analyzed by the same technician
at the Laboratory. Additionally, although we found that GeneScan® data we
reviewed indicated the negative controls were amplified as appropriate,
several GeneScan® printouts we requested were unavailable due to technical
problems with the Macintosh computer utilized by the lab. As a result of
these findings, we made three recommendations.

Recommendations

     We recommend that the FBI:

4.   Direct that the Laboratory document the profile suitability review for
     all future profiles that are uploaded into NDIS.

5.   Direct that the Laboratory implement a policy in its QAM that requires
     analysts to document the review of the profile suitability
     documentation during its match resolution process.

6.   Direct that the Laboratory create and implement a policy or procedure
     for a contingency plan used in future cases of faulty equipment;
     specifically, the Macintosh computer necessary to run GeneScan®
     printouts.




                                    -19-
                                                                          APPENDIX I

             OBJECTIVES, SCOPE, AND METHODOLOGY

      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objectives.

      Our audit generally covered the period from July 2008 through August
2010. The objectives of the audit were to determine if the: (1) Laboratory
was in compliance with the NDIS participation requirements; (2) Laboratory
was in compliance with the Quality Assurance Standards (QAS) issued by the
FBI; and (3) Laboratory’s forensic DNA profiles in CODIS databases were
complete, accurate, and allowable for inclusion in NDIS. To accomplish the
objectives of the audit, we:

   •   Examined internal and external Laboratory review reports and
       supporting documentation for corrective action taken, if any, to
       determine: (a) if the Laboratory complied with the QAS, (b) whether
       repeat findings were identified, and (c) whether recommendations were
       adequately resolved.24

       In accordance with the QAS, the internal and external laboratory review
       procedures are to address, at a minimum, a laboratory’s quality
       assurance program, organization and management, personnel
       qualifications, facilities, evidence control, validation of methods and
       procedures, analytical procedures, calibration and maintenance of
       instruments and equipment, proficiency testing of analysts, corrective
       action for discrepancies and errors, review of case files, reports, safety,




       24
            The QAS require that laboratories undergo annual audits. Every other year, the
QAS requires that the audit be performed by an external agency that performs DNA
identification analysis and is independent of the laboratory being reviewed. These audits
are not required by the QAS to be performed in accordance with the Government Auditing
Standards (GAS) and are not performed by the Department of Justice Office of the
Inspector General. Therefore, we will refer to the QAS audits as reviews (either an internal
laboratory review or an external laboratory review, as applicable) to avoid confusion with
our audits that are conducted in accordance with GAS.

                                            -20-
        and previous audits. The QAS require that internal and external reviews
        be performed by personnel who have successfully completed the FBI’s
        training course for conducting such reviews.

        As permitted by GAS 7.42 (2007 revision), we generally relied on the
        results of the Laboratory’s external laboratory reviews to determine if
        the Laboratory complied with the QAS. 25 In order to rely on the work
        of non-auditors, GAS requires that we perform procedures to obtain
        sufficient evidence that the work can be relied upon. Therefore, we:
        (1) obtained evidence concerning the qualifications and independence
        of the individuals who conducted the review and (2) determined that
        the scope, quality, and timing of the audit work performed was
        adequate for reliance in the context of the current audit objectives by
        reviewing the evaluation procedure guide and resultant findings to
        understand the methods and significant assumptions used by the
        individuals conducting the reviews. Based on this work, we
        determined that we could rely on the results of the Laboratory’s
        external laboratory review.

    •   Interviewed Laboratory officials to identify management controls,
        Laboratory operational policies and procedures, Laboratory certifications
        or accreditations, and analytical information related to DNA profiles.

    •   Toured the Laboratory to observe facility security measures as well as
        the procedures and controls related to the receipt, processing,
        analyzing, and storage of forensic evidence and convicted offender DNA
        samples.

    •   Reviewed the Laboratory’s written policies and procedures related to
        conducting internal reviews, resolving review findings, expunging DNA
        profiles from NDIS, and resolving matches among DNA profiles in NDIS.




        25
            We also considered the results of the Laboratory’s internal review, but could not
rely on it because it was not performed by personnel independent of the Laboratory.
Further, as noted in Appendix II, we performed audit testing to verify Laboratory compliance
with specific Quality Assurance Standards that have a substantial effect on the integrity of
the DNA profiles uploaded to NDIS.

                                            -21-
  •   Reviewed supporting documentation for 13 of 322 NDIS matches to
      determine whether they were resolved in a timely manner. The
      Laboratory provided the universe of NDIS matches as of July 16, 2010.
      The sample was judgmentally selected to include both case-to-case and
      case-to-offender matches. This non-statistical sample does not allow
      projection of the test results to all matches.

  •   Reviewed supporting documentation to determine whether the
      Laboratory provided adequate vendor oversight.

  •   Reviewed the case files for selected forensic DNA profiles to determine if
      the profiles were developed in accordance with the Forensic QAS and
      were complete, accurate, and allowable for inclusion in NDIS.

  •   The NDIS Custodian, via the contractor used by the FBI to maintain
      NDIS and the CODIS software, provided a printout identifying the 753
      Short Tandem Repeat forensic profiles the Laboratory had uploaded to
      NDIS as of July 2, 2010. We limited our review to a sample of 100
      profiles. This sample size was determined judgmentally because
      preliminary audit work determined that risk was not unacceptably high.

  •   Using the judgmentally determined sample size, we randomly selected a
      representative sample of labels associated with specific profiles in our
      universe to reduce the effect of any patterns in the list of profiles
      provided to us. However, since the sample size was judgmentally
      determined, the results obtained from testing this limited sample of
      profiles may not be projected to the universe of profiles from which the
      sample was selected.

      The objectives of our audit concerned the Laboratory's compliance with
required standards and the related internal controls. Accordingly, we did not
attach a separate statement on compliance with laws and regulations or a
statement on internal controls to this report. See Appendix II for detailed
information on our audit criteria.




                                     -22-
                                                              APPENDIX II

                             AUDIT CRITERIA

      In conducting our audit, we considered the NDIS participation
requirements and the Quality Assurance Standards (QAS). However, we did
not test for compliance with elements that were not applicable to the
Laboratory. In addition, we established standards to test the completeness
and accuracy of DNA profiles as well as the timely notification of DNA profile
matches to law enforcement.

NDIS Participation Requirements

       The NDIS participation requirements, which consist of the
Memorandum of Understanding (MOU) and the NDIS operational procedures,
establish the responsibilities and obligations of laboratories that participate
in NDIS. The MOU requires that NDIS participants comply with federal
legislation and the QAS, as well as NDIS-specific requirements
accompanying the MOU in the form of appendices. We focused our audit on
specific sections of the following NDIS operational procedures.

   •   DNA Data Acceptance Standards
   •   DNA Data Accepted at NDIS
   •   Quality Assurance Standards (QAS) Audits
   •   NDIS DNA Autosearches
   •   Confirm an Interstate Candidate Match
   •   General Responsibilities
   •   Initiate and Maintain a Laboratory’s Participation in NDIS
   •   Security Requirements
   •   CODIS Users
   •   CODIS Administrator Responsibilities
   •   Access to, and Disclosure of, DNA Records and Samples
   •   Upload of DNA Records
   •   Expunge a DNA Record




                                      -23-
Quality Assurance Standards

      The FBI issued two sets of Quality Assurance Standards (QAS): QAS
for Forensic DNA Testing Laboratories, effective July 1, 2009 (Forensic QAS);
and QAS for DNA Databasing Laboratories, effective July 1, 2009 (Offender
QAS). The Forensic QAS and the Offender QAS describe the quality
assurance requirements that the Laboratory should follow to ensure the
quality and integrity of the data it produces.

       For our audit, we generally relied on the reported results of the
Laboratory’s most recent annual external review to determine if the
Laboratory was in compliance with the QAS. Additionally, we performed
audit work to verify that the Laboratory was in compliance with the QAS
listed below because they have a substantial effect on the integrity of the
DNA profiles uploaded to NDIS.

   •   Facilities (Forensic QAS and Offender QAS 6.1): The laboratory shall
       have a facility that is designed to ensure the integrity of the analyses
       and the evidence.

   •   Evidence Control (Forensic QAS 7.1): The laboratory shall have and
       follow a documented evidence control system to ensure the integrity of
       physical evidence. Where possible, the laboratory shall retain or return
       a portion of the evidence sample or extract.

   •   Sample Control (Offender QAS 7.1): The laboratory shall have and
       follow a documented sample inventory control system to ensure the
       integrity of database and known samples.

   •   Analytical Procedures (Forensic QAS and Offender QAS 9.5): The
       laboratory shall monitor the analytical procedures using [appropriate]
       controls and standards.

   •   Review (Forensic QAS 12.1): The laboratory shall conduct
       administrative and technical reviews of all case files and reports to
       ensure conclusions and supporting data are reasonable and within the
       constraints of scientific knowledge.

       (Offender QAS Standard 12.1): The laboratory shall have and follow
       written procedures for reviewing DNA records and DNA database
       information, including the resolution of database matches.




                                      -24-
  •   [Reviews] (Forensic QAS and Offender QAS 15.1 and 15.2): The
      laboratory shall be audited annually in accordance with [the QAS]. The
      annual audits shall occur every calendar year and shall be at least 6
      months and no more than 18 months apart.

      At least once every two years, an external audit shall be conducted by
      an audit team comprised of qualified auditors from a second
      agency(ies) and having at least one team member who is or has been
      previously qualified in the laboratory’s current DNA technologies and
      platform.

  •   Outsourcing (Forensic QAS and Offender QAS Standard 17.1): A vendor
      laboratory performing forensic and database DNA analysis shall comply
      with these Standards and the accreditation requirements of federal law.

      Forensic QAS 17.4: An NDIS participating laboratory shall have and
      follow a procedure to verify the integrity of the DNA data received
      through the performance of the technical review of DNA data from a
      vendor laboratory.

      Offender QAS Standard 17.4: An NDIS participating laboratory shall
      have, follow and document appropriate quality assurance procedures to
      verify the integrity of the data received from the vendor laboratory
      including, but not limited to, the following: Random reanalysis of
      database, known or casework reference samples; Inclusion of QC
      samples; Performance of an on-site visit by an NDIS participating
      laboratory or multi-laboratory system outsourcing DNA sample(s) to a
      vendor laboratory or accepting ownership of DNA data from a vendor
      laboratory.

Office of the Inspector General Standards

       We established standards to test the completeness and accuracy of
DNA profiles as well as the timely notification of law enforcement when DNA
profile matches occur in NDIS. Our standards are listed below.

  •   Completeness of DNA Profiles: A profile must include each value
      returned at each locus for which the analyst obtained results. Our
      rationale for this standard is that the probability of a false match
      among DNA profiles is reduced as the number of loci included in a
      profile increases. A false match would require the unnecessary use of
      laboratory resources to refute the match.



                                    -25-
•   Accuracy of DNA Profiles: The values at each locus of a profile must
    match those identified during analysis. Our rationale for this standard
    is that inaccurate profiles may: (1) preclude DNA profiles from being
    matched and, therefore, the potential to link convicted offenders to a
    crime or to link previously unrelated crimes to each other may be lost;
    or (2) result in a false match that would require the unnecessary use
    of laboratory resources to refute the match.

•   Timely Notification of Law Enforcement When DNA Profile Matches
    Occur in NDIS: Laboratories should notify law enforcement personnel
    of NDIS matches within 2 weeks of the match confirmation date,
    unless there are extenuating circumstances. Our rationale for this
    standard is that untimely notification of law enforcement personnel
    may result in the suspected perpetrator committing additional, and
    possibly more egregious, crimes if the individual is not deceased or
    already incarcerated for the commission of other crimes.




                                  -26-
                                                                          APPENDIX III

        LABORATORY RESPONSE TO THE DRAFT REPORT

                           Forensic Services Division



                                            October 18, 2010



Mr. Troy Meyer
Regional Audit Manager
Washington Regional Audit Office
Office of the Inspector General
U.S. Department of Justice
1300 N. 17th Street Suite 3400
Arlington, VA 22209

Dear Mr. Troy Meyer:

       In response to the findings of the DOJ-OIG Inspection which occurred in August 2010
and covered the period July 2008 through August 2010, the following is the Prince George’s
County Police Department’s responses to the recommendations by the auditors:

I-Compliance with NDIS Participation Requirements

Recommendations

   1. Direct the Laboratory to store their on-site backup hard drive in a locked container

Response:
The Laboratory has removed the hard drive and has begun storing the drive in a locked secure
location. The hard drive is now being removed and returned to the CODIS Unit only when it is
time to conduct a back up.
In addition a new server has been ordered that would accommodate tape drive back up that
would be more convenient for the task of backing up the CODIS Data. It is anticipated that this
will be installed before the end of 2010.




                                             -27-
   2. Direct the Laboratory to implement a policy for confirming matches within the 30 day
      period as well as notifying investigators in the allotted two weeks after confirmation.

Response:
A new policy was implemented in the CODIS Procedure Manual to ensure that all matches will
be confirmed with- in 30 days. This means that the Prince Georges County DNA Laboratory will
make contact with the corresponding laboratory so that the corresponding laboratory can initiate
the confirmation process in a timely manner, further once confirmation has been completed by
the corresponding laboratory the Prince George’s County Laboratory will ensure that the
investigator is notified within two weeks. (See Attached)
The Department has recently transferred an officer to the CODIS Unit to assist in ensuring that
the laboratory remains compliant with the recommendation of notifying investigators in the
allotted two weeks as well as assisting in the acquisition of information pertaining to casework.

II-Compliance with the Quality Assurance Standards

   3. Direct that the lab to insert a written policy in its QAM regarding the locking of all
      freezers containing DNA extracts, which reads: All freezers containing DNA extracts will
      be locked at tall times”

Response:
This recommendation was resolved once it was brought to the laboratory’s attention. The
statement “All freezers containing DNA extracts will be locked at all times” was added to the
protocol. (See Attached)

III-Appropriateness of Forensic DNA Profiles in CODIS Databases

     Recommendations

   4. Direct that the Laboratory to document the profile suitability review for all future profiles
      that are uploaded into NDIS.

Response:
A new form was recently implemented that addressed this recommendation. The form will
document the reasons while the profile is suitable for each profile being uploaded to the State of
Maryland and subsequently NDIS. (See Attached)

   5. Direct that the Laboratory implement a policy in its QAM that requires analysts to
      document the review of the profile suitability documentation during its match resolution
      process.




                                              -28-
Response:
A new procedure has been implemented in the CODIS Procedure Manual that requires all
analysts to document the review of the profile suitability during the match resolution process.
This would include but is not limited to the a-continuation reports, b-case communications, e-
mails from the investigating officers. (See Attached)

      6. Direct that the Laboratory create and implement a policy or procedure for a contingency
         plan used in future cases of faulty equipment; specifically, the Macintosh computer
         necessary to run Genescans.

Response:
The Laboratory has been in contact with Applied Bio-system, the software manufacturer. They
have agreed to provide the DNA Laboratory with conversion software that would convert the
data to a format that can be read.

       Should you have any questions or require additional information concerning this
response, please contact Ms. Lynnett Redhead, Manager/CODIS Administrator, DNA
Laboratory, at (301)-772-4837.


                                              Sincerely,



                                              Milburne Lynn
                                              Commander
                                              Forensic Services Division
                                              Prince George’s County Police Department

Enclosure

Cc:      Douglas R. Hares, PhD
         NDIS Custodian
         CODIS Unit
         Laboratory Division




                                               -29-
                                                                             APPENDIX IV

             THE FEDERAL BUREAU OF INVESTIGATION
                RESPONSE TO THE DRAFT REPORT
                                                        U.S. Department of Justice


                                                        Federal Bureau of Investigation



                                                        Washington, D. C. 20535-0001



                                                     October 22, 2010


Troy M. Meyer
Regional Audit Manager
Washington Regional Audit Office
Office of the Inspector General
1300 North 17th Street
Suite 3400
Arlington, VA 22209


Dear Mr. Meyer:

               Your memorandum to Director Mueller forwarding the draft audit report for the
Prince George's County Police Department Laboratory, Landover, Maryland (Laboratory), has
been referred to me for response.

               Your draft audit report contained six recommendations relating to the
Laboratory's compliance with the FBI’s Memorandum of Understanding and Quality Assurance
Standards for Forensic DNA Testing Laboratories . The CODIS Unit is in contact with the
Laboratory and continues to work with its staff on closure of the recommendations.

                Thank you for sharing the draft audit report with us. If you have any questions,
please feel free to contact Jennifer Luttman, Chief of the CODIS Unit, at (703) 632-8315.

                                                     Sincerely,


                                                     Alice R. Isenberg, Ph.D
                                                     Section Chief
                                                     Biometrics Analysis Section
                                                     FBI Laboratory




                                              -30-
                                                            APPENDIX V

OFFICE OF INSPECTOR GENERAL ANALYSIS AND SUMMARY
     OF ACTIONS NECESSARY TO CLOSE THE REPORT

      The Office of the Inspector General (OIG) provided the draft to the
Prince George’s County Police Department Crime Laboratory (Laboratory)
and the Federal Bureau of Investigation (FBI). The Laboratory’s response is
presented in Appendix III, and the FBI’s response is presented in Appendix
IV.

      In its response to the draft report, the Laboratory addressed each of
the six recommendations that were made in the report. Furthermore, where
appropriate, the Laboratory provided documentation for newly implemented
forms, as well as changes to its Quality Assurance Manual and CODIS
Procedure Manual.

Status of Recommendations

  1. Closed. The Laboratory started removing the back-up hard drive and
     storing it in a locked, secure location; returning it to the CODIS Unit
     only when the back-up was occurring. Furthermore, the Laboratory
     stated that a new server, capable of a more convenient tape drive
     back-up system, was ordered and would be installed before the end of
     2010.

  2. Closed. The Laboratory implemented a new policy in its CODIS
     Procedure Manual to ensure that a good faith effort was made to
     confirm all matches within 30 days, and to notify investigators within
     two weeks of confirmation. Additionally, the Laboratory stated that an
     officer was transferred to the CODIS Unit to assist in notifying
     investigators within two weeks of confirmation, as well as acquiring
     information pertaining to casework.

  3. Closed. The Laboratory added the statement “All freezers containing
     DNA extracts will be locked at all time,” to its Quality Assurance
     Manual.




                                   -31-
4. Closed. The Laboratory implemented a new review form that
   documents the reasons the profile is suitable for upload into the SDIS,
   as well as NDIS. A corresponding procedure in the CODIS Procedure
   Manual states that the CODIS Administrator or designee must review
   each case folder and profile to be uploaded to ensure eligibility.
   Furthermore, it requires the SDIS Review Form be completed and
   signed.

5. Closed. The Laboratory implemented a new procedure in its CODIS
   Procedure Manual that requires all analysts to document that they
   have reviewed and provided documentation to substantiate the profile
   suitability for entry into CODIS during the match resolution process.

6. Closed. The Laboratory has been in contact with Applied Biosystems,
   a software manufacturer, that agreed to convert the GeneScan® data
   to a format that can be read.




                                 -32-
